             - - -
                              hhl1IONALSCIENCE FOUNDATION
                                WASHINGTON, D.C. 2 0 5 5 0




     O f f i c e of
Inspector G e n e r a l



MEMORANDUM
      DATE:           September 6, 1994




 SUBJECT:                      J- I
                      Thefts from                Facility    A


          TO:         Case No. I94060029

On June 3, 1994, we received a complaint from
        of the                facility.        re
opening in                   have been numerous thefts of small
amounts of food from the kitchen and eatery areas of the facility:
On May 31, 1994,-0ntacted         DAS to report the problems. On
June 23, 1994, DL! changed the lock on the rear (servicb) entrance
to the facility. However, the thefts continued.
On July 1, 1994, we contacted DAS and discussed the possibility of
increased security measures.     DAS agreed to increase security
measures and on July 5 , 1994, the locks on the two front entrances
to the facility were changed and a buzzer was installed on the
service entrance. In addition, on September 2, 1994, DAS notified
OIG that the maintenance crew no longer has access to the facility
a n d h a s asked several of her employees to leave.

m!'   reports that since July 6, 1994 the thefts have ceased.
     er investigation is not warranted at this time and no further
action is necessary.
This case is closed.
